                                      CLOSEOUT MEMORANDUM




        ALLEGATION OF FALSE CLAIMS
                                                    -C-




                              provided information regarding            repayment of the unauthorized salary




during the project also not within the scope of the grant conditions.


                  also took action to reimburse NSF for both unauthorized disbursements in the amount of
$1 1,956.07. With no investigative leads remaining this case is closed.
